            Office of Inspector General
                       for the
            Railroad Retirement Board




Semiannual Report to the Congress
                  ■
April 1, 2013 to September 30, 2013
                   UNITED STATES RAILROAD RETIREMENT BOARD

                              OFFICE OF INSPECTOR GENERAL


                                          October 31, 2013


The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report provides
a descriptive summary of our activities and accomplishments during the period of
April 1, 2013 through September 30, 2013. This report is submitted in accordance
with Section 5 of the Inspector General Act of 1978, as amended. The Act requires
that you transmit this report, along with any comments you may wish to make, to the
appropriate Congressional committees and subcommittees within 30 days.

During this reporting period, we:

   •   audited the RRB's management control review process for Railroad Medicare
       contract oversight;
   •   completed our review of questionable railroad on-the-job injury claims;
   •   audited the RRB’s internal controls over widow(er) annuities;
   •   published the results of our audit regarding the RRB’s compliance with the
       Government Charge Card Abuse Prevention Act of 2012; and
   •   audited the RRB’s privacy policy.

Our criminal investigators achieved 17 arrests, 25 criminal convictions,
27 indictments and informations, 28 civil judgments, and more than $408 million in
financial accomplishments resulting from OI’s investigative work, including joint
investigations.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                  Sincerely,


                                                  Original Signed by
                                                  Martin J. Dickman
                                                  Inspector General


844 N RUSH STREET CHICAGO IL 60611-2092                            Printed on recycled paper
                                                   Table of Contents


INTRODUCTION ............................................................................................................. 1
   Railroad Retirement Board .......................................................................................... 1
   Board Members ........................................................................................................... 1
   Office of Inspector General .......................................................................................... 1
EXECUTIVE SUMMARY................................................................................................. 3
   Office of Audit .............................................................................................................. 3
   Office of Investigations ................................................................................................ 3
APPRIL 1, 2013 – SEPTEMBER 30, 2013 ACCOMPLISHMENTS ................................ 4
   Office of Audit .............................................................................................................. 4
      Audit of the Railroad Retirement Board’s Management Control Review Process for
      Railroad Medicare Contract Oversight ..................................................................... 5
      Review of Questionable On-the-Job Injury Claims ................................................... 7
      Audit of the Railroad Retirement Board’s Internal Controls over Widow(er) Annuities
      ................................................................................................................................. 9
      Audit of the Railroad Retirement Board’s Compliance with the Government Charge
      Card Abuse Prevention Act of 2012 ....................................................................... 12
      Audit of the Railroad Retirement Board’s Privacy Program .................................... 13
      Management Decisions and Implementation ......................................................... 15
   Office of Investigations .............................................................................................. 16
      Current Caseload ................................................................................................... 16
      Caseload and Potential Fraud Loss By Case Type ................................................ 17
      Investigative Accomplishments .............................................................................. 18
   Representative Investigations .................................................................................... 19
      Disability Investigations .......................................................................................... 19
      Unemployment-Sickness Insurance Investigations ................................................ 20
      Retirement-Survivor Benefits and Representative Payee Investigations ............... 22
      Railroad Medicare Investigations ........................................................................... 24
      Civil Enforcement Results ...................................................................................... 25
   Hotline Contacts ........................................................................................................ 26
OTHER OVERSIGHT ACTIVITIES ............................................................................... 27
                                                Table of Contents


   Occupational Disability Program ................................................................................ 27
   OIG Alerts .................................................................................................................. 27
   American Recovery and Reinvestment Act of 2009................................................... 28
OPERATIONAL ISSUES............................................................................................... 28
   National Railroad Retirement Investment Trust ......................................................... 28
LEGISLATIVE & REGULATORY REVIEW ................................................................... 29
APPENDICES ............................................................................................................... 30
   Appendix A – Office of Inspector General Reports and Other Publicly Available
   Papers Issued ............................................................................................................ 31
   Appendix B – Audit Reports with Questioned Costs or with Recommendations That
   Funds be Put to Better Use ....................................................................................... 32
   Appendix C – Report on Receivables, Waivers, and Recoveries .............................. 33
   Appendix D – Significant Matters ............................................................................... 35
   Appendix E – Peer Reviews ...................................................................................... 37
   Appendix F – Reports Prepared by Management ...................................................... 38
   Appendix G – Reporting Requirements ..................................................................... 45
   Appendix H – Acronyms ............................................................................................ 46
   Appendix I – Legal References .................................................................................. 47
       Office of Inspector General for the Railroad Retirement Board


      INTRODUCTION
      Railroad Retirement Board
The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers comprehensive disability,
unemployment-sickness insurance, and retirement-survivor benefit programs for the
nation's railroad workers and their families. These programs are codified under the
Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA),
respectively. During fiscal year (FY) 2012, the RRB paid more than $11.4 billion in
retirement-survivor and unemployment-sickness benefits to roughly 595,000
beneficiaries.

The RRB also has administrative responsibilities for certain benefit payments under the
Social Security Act, including the administration of Medicare benefits for qualifying
railroad workers and dependents. Pursuant to statutory authority, the RRB, in
consultation with the Centers for Medicare and Medicaid Services, awards and monitors
the single nationwide Railroad Medicare Part B Services contract. During FY 2012, the
Railroad Medicare contractor paid approximately $849 million in Part B medical
insurance benefits on behalf of roughly 452,000 Railroad Medicare beneficiaries.

      Board Members

The RRB’s Board consists of three members who are appointed, with the advice and
consent of the Senate, by the President of the United States. One member is appointed
upon the recommendation of railroad employers; another member is appointed upon the
recommendation of railroad labor organizations; and the third, who is the Chairman, is
appointed to represent the public’s interest. Board Members’ terms are five years in
length and expire in staggered years.

      Office of Inspector General

The Railroad Retirement Solvency Act of 1983 amended the RRA to provide for an
Office of Inspector General (OIG) for the RRB. The 1988 amendments to the Inspector
General Act added the RRB to the list of covered agencies.




                        Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 1
      Office of Inspector General for the Railroad Retirement Board

The RRB’s Inspector General is a Presidential Appointee, with Senate confirmation,
who serves as an independent and objective voice to both the RRB Board Members
and the Congress. It is the Inspector General’s responsibility to promote economy,
efficiency, and effectiveness in the RRB’s programs and operations. To that end, the
OIG conducts audits/evaluations, management reviews, and inspections of the RRB’s
programs and operations. As a product of its efforts, the OIG offers recommendations
for agency improvement to RRB management. The OIG also identifies and investigates
cases of waste, fraud, and abuse in the RRB’s programs and operations. The OIG
works closely with Federal prosecutors and makes the appropriate referrals for criminal
prosecution, civil prosecution, monetary recovery, or administrative sanctions.

The OIG has three operational components: the immediate Office of the Inspector
General, the Office of Audit, and the Office of Investigations. The OIG conducts
operations from several locations including the RRB headquarters in Illinois and
investigative field offices in California, Florida, Pennsylvania, New York, Texas, and
Virginia. These field offices provide an increased investigative presence which aides in
the effective and efficient coordination of joint investigations with other Inspector
General offices and law enforcement agencies.

       Long Island Rail Road Occupational Disability Fraud
       Investigation
During this semiannual reporting period, 3 individuals were convicted and 5 individuals
pled guilty to charges stemming from their participation in a brazen occupational
disability fraud scheme involving former Long Island Rail Road (LIRR) employees,
doctors, and disability facilitators thereby bringing the total up to 31 guilty resolutions out
of 33 indictments. The remaining two individuals were on trial as of September 30, 2013
and the verdict will be discussed in our next reporting period. These results are
discussed further on page 19.

In connection with our ongoing LIRR investigation, we’ve recommended the immediate
termination of benefits (including Railroad Medicare coverage, if applicable) for all RRB
annuitants whose disability awards were granted based upon medical documentation
submitted by either doctor found guilty in this case. The RRB subsequently agreed and
has issued termination letters. Based upon our experience gained through the LIRR
investigation, we’ve made a number of recommendations to the Board designed to
increase program integrity of the adjudication process for any new disability applications
filed in connection with these terminations. As of September 30, 2013, the Board’s
response is pending.

                          Semiannual Report to the Congress
                    April 1, 2013 – September 30, 2013 │ P a g e 2
       Office of Inspector General for the Railroad Retirement Board


EXECUTIVE SUMMARY
       Office of Audit

The Office of Audit (OA) conducts financial, performance, and compliance audits and
evaluations/inspections of the RRB’s programs and operations. During this reporting
period, the OA:

   •   audited the RRB's management control review process for Railroad Medicare
       contract oversight;
   •   completed their review of questionable railroad on-the-job injury claims;
   •   audited the RRB’s internal controls over widow(er) annuities;
   •   published the results of their audit regarding the RRB’s compliance with the
       Government Charge Card Abuse Prevention Act of 2012; and
   •   audited the RRB’s privacy policy.

OA’s activities, during this reporting period, are discussed in further detail on pages 4
through 15 of this report. All publicly available reports are available on our website
at www.rrb.gov/oig.

       Office of Investigations
The Office of Investigations (OI) focuses its efforts on identifying, investigating, and
presenting RRB benefit fraud cases for prosecution. OI conducts investigations
throughout the United States relating to:

   •   the fraudulent receipt of RRB disability, unemployment-sickness, and retirement-
       survivor benefits;
   •   Railroad Medicare fraud;
   •   false reporting by railroad employers; and
   •   criminal violations and misconduct by RRB personnel.

Investigative efforts may result in criminal convictions; civil judgments and penalties;
administrative recovery of program benefit funds; and/or administrative sanctions.




                         Semiannual Report to the Congress
                   April 1, 2013 – September 30, 2013 │ P a g e 3
        Office of Inspector General for the Railroad Retirement Board

From April 1, 2013 through September 30, 2013, OI achieved:

    •    17 arrests;
    •    27 indictments and informations;
    •    25 convictions;
    •    28 civil judgments;
    •    40 referrals to the Department of Justice; and
    •    more than $408 million 1 in financial accomplishments.

Defendants, in the aggregate, were sentenced to more than 31 years of prison, over
73 years of probation, and 150 hours of community service. Additional details regarding
OI’s activities are discussed on pages 16 through 25.

         APPRIL 1, 2013 – SEPTEMBER 30, 2013
         ACCOMPLISHMENTS
         Office of Audit
Congress established the OIG to provide independent oversight of the RRB. Within the
OIG, OA’s mission is to promote economy, efficiency, and effectiveness in the
administration of the RRB’s programs and operations; and to detect and prevent fraud,
waste, and abuse. Through the Inspector General, OA keeps Board Members and the
Congress informed of current and potential problems and deficiencies in the RRB’s
operations. OA also tracks the agency’s progress towards corrective action.

Brief summaries of all audits completed during this semiannual reporting period follow.




1
  The total amount of financial accomplishments reflect fraud amounts related to programs administered exclusively by
the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in the
disposition resulting from the investigation.



                               Semiannual Report to the Congress
                         April 1, 2013 – September 30, 2013 │ P a g e 4
       Office of Inspector General for the Railroad Retirement Board


       Audit of the Railroad Retirement Board’s Management
       Control Review Process for Railroad Medicare Contract
       Oversight
Background

In May 1966, the Social Security Administration (SSA) delegated authority to the RRB
for administering certain provisions of the Medicare program for Qualified Railroad
Retirement Beneficiaries (QRRBs). These provisions included enrollment, premium
collection, and selection of a carrier to process Medicare Part B claims. The enactment
of Public Law 92-603 in October 1972 amended the Social Security Act and granted the
RRB jurisdiction over all QRRB's that were receiving benefits from both the RRB and
the SSA.

Since April 2000, the RRB has contracted with a nationwide contractor, Palmetto GBA,
LLC (Palmetto), to process the Medicare Part B claims for QRRBs. As of
September 28, 2012, Palmetto was awarded contract responsibilities as the Railroad
Specialty Medicare Administrative Contractor. The RRB’s contract with Palmetto states
that, “[t]he contractor shall perform all carrier functions for individuals enrolled in Part B
of the Railroad Medicare program throughout the United States.” These carrier functions
include medical review and benefit integrity. As a Specialty Medicare Administrative
Contractor with responsibility for nationwide Railroad Medicare claims,
Palmetto has not been assigned to a Zoned Program Integrity Contractor; and
therefore, is potentially subject to increased risk of improper payments when compared
with a regional Medicare Administrative Contractor.

Office of Management and Budget (OMB) Circular A-123, Management Accountability
and Control, states that management controls are the organization, policies, and
procedures used to reasonably ensure that:

   •   programs achieve their intended results;
   •   resources are used consistent with agency mission;
   •   programs and resources are protected from waste, fraud, and mismanagement;
   •   laws and regulations are followed; and
   •   reliable and timely information is obtained, maintained, reported, and used for
       decision making.




                          Semiannual Report to the Congress
                    April 1, 2013 – September 30, 2013 │ P a g e 5
       Office of Inspector General for the Railroad Retirement Board

Circular A-123 further states that these policies require agencies and individual Federal
managers to take systematic and proactive measures to develop and implement
appropriate, cost-effective management controls for results-oriented management;
assess the adequacy of management controls in their operations; identify needed
improvements; take corresponding corrective actions; and report annually on
management controls.

Objective

The objective of the audit was to determine if the RRB’s management control review
(MCR) process adequately addresses the RRB’s responsibilities for Railroad Medicare
contract oversight.

Findings

The RRB’s current MCR process does not include the RRB’s responsibilities for
oversight of the Railroad Medicare contract with Palmetto. While Railroad Medicare has
been identified by the RRB as a mission-critical agency program, with annual processed
claims exceeding 9.4 million and payments of approximately $849 million for Part B
medical services, the Office of Programs has not conducted an MCR risk assessment or
established risk-based control objectives and techniques specific to its contract
oversight responsibilities.

Based on the Centers for Medicare & Medicaid Services’ FY 2012 improper payment
rates, the OIG estimates Railroad Medicare Part B improper payments to be more than
$84 million, annually. 2 As Railroad Medicare contract oversight is not subject to the
RRB’s MCR process, the risks of program fraud, waste, and abuse cannot be fully
mitigated by management controls. As a result, material weaknesses or significant
deficiencies in the Railroad Medicare program may go undetected, increasing the risk of
improper payments. The inclusion of contract oversight in the RRB’s MCR process will
help to ensure the fulfillment of the RRB’s program responsibilities, which include
monitoring the integrity and effectiveness of the Railroad Medicare program.




2
  Source: Centers for Medicare and Medicaid Services’ Fact Sheet, Fiscal Year 2012 Improper Payment
Rates For CMS Programs, November 21, 2012 (Railroad Medicare improper payments were estimated by
applying the improper payment rate for the Physician/Lab/Ambulance claim type. As a result, claim types not
processed by Palmetto were excluded from the calculation).

                            Semiannual Report to the Congress
                      April 1, 2013 – September 30, 2013 │ P a g e 6
       Office of Inspector General for the Railroad Retirement Board

Recommendation

We recommend that the agency include Railroad Medicare contract oversight in the
RRB’s MCR process to ensure that management controls effectively monitor carrier
performance and mitigate the risks of program fraud, waste, and abuse.

Management’s Response

The agency concurred with this recommendation

       Review of Questionable On-the-Job Injury Claims

Background

Generally, railroad employees do not receive workers’ compensation for on-the-job
injuries; instead, they sue their employers for injury claims. The RRB pays sickness
benefits to railroad employees during the period of injury, and subsequently sets up a
lien against any future settlements to recover the amount of sickness benefits paid. The
RRB’s Office of Programs is responsible for adjudicating and processing sickness
applications and for issuing Notices of Lien. They also issue Internal Revenue Service
Form W-2, Wage and Tax Statement (W-2), which identifies sickness benefits paid and
taxes withheld.

In order to be eligible to receive sickness benefits, employees must complete an
Application for Sickness Benefits and have their doctor complete a Statement of
Sickness. If the employee designates that his or her injury or illness is work-related, the
RRB claims examiner codes the claim appropriately and a Notice of Lien is
automatically generated.

The RRB sends Notices of Lien to each person or company identified as liable, or
potentially liable, for causing the employee’s injury at work or work-related illness. The
Notice of Lien notifies the person or company that the RRB is entitled to reimbursement
of the sickness benefits paid if the employee receives any sum or damages from the
liable party through suit, compromise, settlement, or judgment. As of February 2013,
there were approximately 11,500 outstanding Notices of Lien.

From May 2011 through September 2012, 4 railroad employers sent the OIG a total of
247 referrals for cases where they had received a Notice of Lien from the RRB, yet they
had no corresponding record of a work-related injury. In order to respond directly to

                         Semiannual Report to the Congress
                   April 1, 2013 – September 30, 2013 │ P a g e 7
       Office of Inspector General for the Railroad Retirement Board

these inquiries and to support the RRB’s goal to provide excellent customer service, we
performed this audit.

Objective

Our objective was to determine if the agency’s Notices of Lien were issued in
accordance with applicable laws and regulations.

Findings

Our review determined that the agency’s policies and procedures generally complied
with applicable laws and regulations regarding the processing of Notices of Lien.
However, we disclosed that Notices of Lien were incorrectly sent to the railroads and
sickness benefits were not taxed because of coding errors by claims examiners.

We also observed that although the employees had certified to the RRB that their
injuries or illnesses were work-related, they had not notified their railroad employers.
The RRB relies on the employee’s certification of an on-the-job injury or illness, without
corroboration from the railroad employer, to exempt sickness benefits from taxation. As
a result, employees can receive tax-free sickness benefits even though the employer
does not have any record of the injury or illness.

Recommendations

We recommend that the Office of Programs:

   •   strengthen controls to ensure that claims examiners correctly code Application
       for Sickness Benefits forms;
   •   issue corrected W-2s for eight miscoded cases; and
   •   consider changing the procedures for coding Applications for Sickness Benefits
       so that the determination of the taxability of sickness benefits is separate from
       the issuance of the Notices of Lien.

Management’s Response

The Office of Programs concurred with the first two recommendations but rejected the
third recommendation. They stated that they do not believe changes to the current
process are warranted and that they expect the actions planned in response to our first
recommendation will result in the necessary improvements to this area.


                         Semiannual Report to the Congress
                   April 1, 2013 – September 30, 2013 │ P a g e 8
       Office of Inspector General for the Railroad Retirement Board


OIG’s Comments on Management’s Response

We disagree with the Office of Program’s response and question the adequacy of their
procedures that exempt sickness benefits from taxation without validation of an on-the-
job injury or illness.

       Audit of the Railroad Retirement Board’s Internal
       Controls over Widow(er) Annuities
Objective

OA conducted an audit of internal controls over widow(er) annuities. The audit objective
was to determine if internal controls were adequate to ensure the accuracy of benefit
payments awarded to widow(er)s.

Findings

Internal controls are not sufficient to ensure that widow(er) annuities are accurate. OA’s
review of a statistical sample of 105 widow(er) annuity awards identified 5 sample cases
that contained a payment error for the actual rate or for the period paid. Based on our
projection, we estimate the monetary impact of unidentified improper payments to be
approximately $2.6 million.

Documentation to support eligibility for widow(er) annuities is not always maintained in
the RRB’s imaging system. We were unable to verify the widow(er) annuity entitlement
in 65 of 105 sample cases because the RRB did not always retain documentary
evidence supporting proofs necessary to determine eligibility for a widow(er) annuity.
Instead, the RRB relied on dates transcribed from the proofs and entered into the
Application Express System (APPLE). Proof information transcribed into an electronic
record by a single individual without secondary review is not sufficient documentation to
verify eligibility to a widow(er) annuity. Based on our projection, there could be a total of
4,465 cases without all of the supporting documentation.

The proper management official is not being held accountable for the agency’s
management control activities as related to the survivor application proof process.
Although these control activities are now performed by Field Service, they are currently
included in the Office of Programs’ assessable unit which was appropriate when Field
Service was part of the Office of Programs. Field Service became a separate bureau in

                          Semiannual Report to the Congress
                    April 1, 2013 – September 30, 2013 │ P a g e 9
       Office of Inspector General for the Railroad Retirement Board

May 2012 when the Board Members approved a change in the agency’s organizational
structure related to its nationwide network of 53 field offices.

Key Recommendations

We recommend that agency management:

   •   take action for the error cases cited above to correct the annuity beginning dates,
       payment amounts, and to establish overpayments and/or issue accruals when
       necessary;
   •   improve internal controls;
   •   determine if there are similar error cases and take all corrective action;
   •   provide additional training;
   •   revise procedures to require the retention of scanned copies of needed proofs in
       the RRB’s claim folder system;
   •   obtain and retain the copies of proofs to verify the eligibility of the widow(er)
       annuities for the 65 error cases and determine if verification of eligibility should
       be expanded to the universe of widow(er) annuities processed using proof data
       transcribed in APPLE; and
   •   establish a separate assessable unit for Field Service’s control activities related
       to the survivor widow(er) annuity application and proof process to ensure that the
       proper management official is accountable for these control responsibilities.

Management’s Response

The Office of Programs agreed to take corrective actions for the error cases involving
annuity beginning dates, payment amounts, and to establish overpayments and/or issue
accruals when necessary. The Office of Programs stated that they will conduct refresher
training and periodically perform data comparisons to address the identified internal
control weaknesses. The Office of Programs stated that they have already run a query
but did not find any additional cases where the annuity beginning date is prior to the
employee’s date of death.

The Office of Programs and Field Service disagreed with the recommendations
pertaining to revising procedures requiring the retention of scanned copies of proofs.
They stated that the current method of transcription has been in place for many years
and has proven to be sufficient and reliable. The Office of Programs and Field Service
also disagreed with the recommendations pertaining to obtaining and retaining copies of
proofs for the 65 error cases and did not agree with our recommendation to determine if

                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 10
       Office of Inspector General for the Railroad Retirement Board

the verification of eligibility should be expanded to the universe of widow(er) annuities
processed using proof data transcribed in APPLE. The Office of Programs and Field
Service also stated that they believed that the 65 cases should not have been
characterized as errors because they were handled according to procedure.

The Management Control Review Committee did not concur with our recommendation
to establish a separate assessable unit for Field Service’s control activities related to the
survivor widow(er) annuity application and proof process. They stated that the
responsible official for Survivor Benefits-Initial assessable unit should continue to
document and test the controls at this time.

OIG’s Comments on Management’s Response

In regard to the recommendations that the Office of Programs and Field Service
disagreed with, we do not agree with management’s statement that transcribing the
proof data is sufficient and reliable. We maintain that proofs should be obtained and
retained for all error cases identified and for the universe of widow(er) annuities
processed that only used transcribed proof data. Proof retention would provide clearly
documented evidence to ensure that these annuitants are eligible and as a means to
detect potential fraud. Proof retention is needed to address the agency’s goal of serving
as responsible stewards for customer trust funds and agency resources and to ensure
that the correct amount of benefits are paid to the right people. While management
disagrees that the 65 cases should be cited as errors, we were unable to verify eligibility
for the 65 annuitants and as such, these cases have been cited as errors.

In regard to the recommendation that the Management Control Review Committee did
not concur with, we maintain that the responsible official for Survivor Benefits is too far
removed from Field Service’s organizational structure to be knowledgeable about and
kept informed of internal control issues related to the survivor application proof process
conducted in the 53 Field Offices.




                          Semiannual Report to the Congress
                   April 1, 2013 – September 30, 2013 │ P a g e 11
       Office of Inspector General for the Railroad Retirement Board

        Audit of the Railroad Retirement Board’s Compliance
        with the Government Charge Card Abuse Prevention Act
        of 2012
Background

On October 5, 2012, the President signed into law the Government Charge Card Abuse
Prevention Act of 2012, which creates stricter rules for Federal employees’ use of
government charge cards. This includes requiring agencies to establish and maintain
safeguards and internal controls over purchase cards, travel cards, and centrally billed
accounts. 3 The law also introduced rules of eligibility for travel cards and specific
penalties for the abuse of inappropriate activity.

The RRB uses purchase cards for individual purchases of goods and services and uses
travel cards for all payments of expenses related to official Government travel. In
FY 2012, the RRB's purchase card and travel card charges totaled approximately
$600,000 and $500,000, respectively.

Objective

To assess the agency’s compliance with the Government Charge Card Abuse
Prevention Act of 2012, and to support the agency’s goal to “serve as responsible
stewards for our customers’ trust funds and agency resources,” the OIG conducted this
audit of the RRB’s policies, procedures, and records for purchase and travel card
transactions from December 2011 through January 2013.

Key Findings

Our audit determined that the agency generally complied with the requirements of the
Government Charge Card Abuse Prevention Act of 2012. Improvements; however; are
needed to ensure that: (1) the control to perform a continuing need review for charge
card holders is included in the management control review process, (2) that written
procedures for the continuing need review for charge card holders are developed, and
(3) that only credit card statements with proper authorization are processed.


3
  A centrally billed account is a card or account established by the RRB’s credit card company (Citibank) at
the request of the Program Coordinator for direct payment of transportation expenses. Payments are made
directly by the RRB to Citibank.

                             Semiannual Report to the Congress
                      April 1, 2013 – September 30, 2013 │ P a g e 12
       Office of Inspector General for the Railroad Retirement Board

Recommendations

We recommend that agency management:

   •   update management control review documentation for the Procurement
       Assessable Unit to include a control for periodic continuing need reviews of
       charge card holders;
   •   develop written procedures for continuing need reviews, to include when and
       how often the review should be performed; and
   •   ensure that the agency only processes payments for credit card statements with
       proper authorization.

Management’s Response

Agency management concurs with all recommendations.

       Audit of the Railroad Retirement Board’s Privacy
       Program
Objective

OA conducted an audit to assess the adequacy of the RRB’s privacy program and to
ensure that the RRB is in compliance with current and anticipated requirements for
privacy. The audit focused on the initial and annual privacy training for RRB employees
and contractors, the privacy reviews that are performed, the privacy reports that are
filed, and the policies and procedures of the privacy program.

Findings

We identified the following weaknesses:

   •   contractor personnel are not adequately identified;
   •   instructional memo from Acquisition Management to the contracting officer’s
       representative needs revision;
   •   contractor personnel did not receive annual privacy training;
   •   outdated privacy and security training materials are provided to new employees;
   •   administrative circulars are outdated;



                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 13
       Office of Inspector General for the Railroad Retirement Board

   •   privacy considerations need to be included with systems development requests;
       and
   •   a strategic organizational privacy plan needs to be developed to include policies
       on the validation of personally identifiable information (PII), communication
       between bureaus regarding changes in PII, and the use and protection of PII in
       testing, training, and research.

Recommendations

To address the identified weaknesses, we recommended that RRB officials take the
following actions:

   •   Update and maintain the Contractor Security Control Log to reflect all contractor
       personnel that work at the RRB during the life of the contract, and indicate if they
       will have access to PII.
   •   Revise the instructions to the contracting officer’s representative to update the
       Contractor Security Control Log and implement a control to ensure those updates
       are made.
   •   Revise the methods for identifying contractor personnel and distributing the
       annual privacy training, and implement a control to verify that all contractors
       receive annual training.
   •   Revise and update the privacy and security awareness training documents, and
       update the privacy training materials provided to new employees.
   •   Revise Administrative Circulars IRM-2 and IRM-15 to reflect current security and
       privacy documents and procedures.
   •   Revise Form G-436A to include privacy related questions and an approval by the
       Chief Privacy Officer.
   •   Develop a strategic organizational privacy plan that is multi-organizational and
       represents the RRB as a whole.
   •   Develop policies for the validation of PII, the communication between bureaus
       regarding changes in PII, and the use and protection of PII in testing, training,
       and research.

Management’s Response

Agency management concurs with all recommendations.

                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 14
       Office of Inspector General for the Railroad Retirement Board


      Management Decisions and Implementation
As part of its oversight activities, the OIG tracks the agency’s implementation of audit
recommendations. Additionally, OMB Circular No. A-50 (Revised) and the Inspector
General Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.

                                Management Decisions
           Requiring Management Decision on April 1, 2013                 5
           Pending Management Decision for New
                                                                          0
           Recommendations
           Management Decision on Previous Recommendations                0
           Recommendations Pending Management Decision on
                                                                          5
           September 30, 2013



                                   Corrective Action
           Recommendations Requiring Action on April 1, 2013             202
           Recommendations Issued During Reporting Period                 29
           Corrective Actions Completed During Reporting Period           19
           Recommendations Rejected During Reporting Period               7
           Final Actions Pending on September 30, 2013                   205




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 15
        Office of Inspector General for the Railroad Retirement Board

         Office of Investigations

OI's primary objective is to identify, investigate, and refer for prosecution or monetary
recovery action cases of waste, fraud, or abuse in the RRB’s programs. OI also seeks
to prevent and deter program fraud by reporting systemic weaknesses identified through
investigative work. In order to maximize the impact of its resources, OI continues to
pursue cooperative investigative activities in coordination with other Inspectors General
such as the Office of Inspector General for the Department of Health and Human
Services and other law enforcement agencies, such as the Federal Bureau of
Investigation and the U.S. Secret Service.

         Current Caseload

During this semiannual reporting period, OI opened 72 new cases.

                                       Investigative Caseload Data
           Investigative Cases Open as of April 1, 2013                                          442
           Investigative Cases Opened During Reporting Period                                     72
           Investigative Cases Closed During Reporting Period                                    141
           Investigative Cases Open as of September 30, 2013                                     373

As of September 30, 2013, OI’s investigative case load totaled 373 matters which
represent approximately $217 million in potential fraud losses. 4 The chart located on the
next page reflects the distribution of OI cases and potential fraud losses by RRB major
program area.




4
  This reflects potential fraud amounts related to programs administered exclusively by the RRB and potential fraud
amounts from other Federal programs such as Medicare or Social Security which have been identified during OI’s joint
investigative work.



                               Semiannual Report to the Congress
                        April 1, 2013 – September 30, 2013 │ P a g e 16
        Office of Inspector General for the Railroad Retirement Board


       Caseload and Potential Fraud Loss By Case Type


                     39 Cases
                     $1.1 Million
                                                          134 Cases
                                                          $1.8 Million
          52 Cases
          $1.9 Million
                                                                   Unemployment - Sickness
                                                                   Railroad Medicare
                                                                   Disability
                                                                   Retirement
                                                                   Other*


           98 Cases
           $205.3 Million                                50 Cases
                                                         $6.9 Million


*Other case type is an amalgam of various types of cases involving matters such as misconduct by RRB
employees, threats against agency employees, false reporting by railroad employers, and others.




                            Semiannual Report to the Congress
                     April 1, 2013 – September 30, 2013 │ P a g e 17
        Office of Inspector General for the Railroad Retirement Board

         Investigative Accomplishments

                                                                           April 1, 2013 –
                                     Action
                                                                         September 30, 2013
               Referrals to the Department of Justice                                40

               Indictments/Informations                                              27
               Arrests                                                               17
               Convictions                                                           25
               Civil Complaints                                                       8
               Civil Judgments                                                       28
               Restitution and Fines 5                                         $270 Million
               Civil Damages and Penalties 6                                 $137.9 Million
               Investigative Recoveries 7                                       $108,619
               Community Service Hours                                              150




5
  The dollar amounts in this table reflect fraud amounts related to programs administered exclusively by the RRB and
fraud amounts from other Federal programs such as Medicare or Social Security which were included in the disposition
resulting from the investigation.
6
  See above footnote.
7
  RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery action are
expressed as investigative recoveries.



                               Semiannual Report to the Congress
                        April 1, 2013 – September 30, 2013 │ P a g e 18
       Office of Inspector General for the Railroad Retirement Board


       April 1, 2013 – September 30, 2013
       Representative Investigations

       Disability Investigations

OI conducts fraud investigations relating to the RRB's disability program. Railroad
workers who are awarded an RRB disability annuity are subject to work restrictions and
earnings limitations. Disability benefit fraud often involves sophisticated schemes to
hide disqualifying work activities from the RRB.

During this reporting period, OI obtained five convictions and one civil judgment in
disability fraud cases. The defendants received, in the aggregate, sentences totaling
more than 11½ years of prison, 11 years of probation, and were ordered to pay more
than $233.5 million in restitution and civil damages/penalties.

Descriptions of representative cases completed during this reporting period follow.

       Doctor Sentenced to Eight Years of Prison For His Role in the
       LIRR Occupational Disability Fraud Scheme
We previously reported the guilty plea entered by a doctor who admitted to preparing
medical narrative used to fraudulently qualify LIRR employees for RRB occupational
disability annuities. During this semiannual reporting period, a Federal District Court
Judge sentenced the doctor to eight years of prison and three years of supervised
release. In connection with his guilty plea, the doctor had previously agreed to forfeit
$116.5 million and to pay $116.5 million in restitution.

       Doctor and Two Consultants Found Guilty in First LIRR
       Occupational Disability Fraud Trial
The first three defendants (a doctor, a former LIRR union president, and a former RRB
employee) tried for their participation in the massive LIRR fraud scheme were convicted
on all counts. The doctor was convicted for preparing fraudulent medical narratives
designed to qualify LIRR employees for RRB occupational disability annuities and for
billing thousands of dollars worth of unnecessary medical tests to support these
narratives. The other two individuals were convicted for their roles as disability
consultants who would falsify RRB disability applications on behalf of their clients.
Sentencing has been scheduled for December 2013.

                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 19
      Office of Inspector General for the Railroad Retirement Board

       Disability Annuitant Sentenced to Prison for Failure to Report
       Information to the Railroad Retirement Board
Special Agents investigated a self-employed RRB disability annuitant who owned and
operated a home theater installation company but reported earnings under his spouse’s
social security number to avoid detection by the RRB.

This case was referred to the United States Attorney’s Office for the Central District of
Illinois which filed an indictment against the annuitant. He subsequently pled guilty to
Failure to Report Information to the RRB and was sentenced to 1 day of prison,
6 months of home confinement, 1 year of probation, and more than $34,000 in
restitution.

       Annuitant Pays $25,000 Lump Sum to Settle Potential False
       Claims Charges

Special Agents investigated an RRB disability annuitant who failed to report earnings
associated with his ownership of a successful construction business. His failure to
report this information to the RRB caused him to fraudulently receive RRB disability
payments.

This case was referred to the United States Attorney’s Office for the Southern District of
Ohio. The United States Attorney’s Office entered into a settlement agreement with the
annuitant for $25,000.

       Unemployment-Sickness Insurance Investigations

Unemployment-Sickness Insurance benefit fraud typically involves individuals claiming
and receiving Unemployment Insurance (UI) or Sickness Insurance (SI) benefits while
working or collecting state administered unemployment benefits. OI receives the
majority of these cases from the RRB’s Disability, Sickness, and Unemployment
Benefits Division as a result of information developed through state wage matching
programs. The RRB conducts computer wage matches with various states to identify
claimants who may have collected RRB administered UI or SI benefits on the same
days they received wages from a private employer or on the same days they received
state administered unemployment benefits.




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 20
       Office of Inspector General for the Railroad Retirement Board

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, almost 88% of OI’s current UI fraud cases involve extended
UI benefits.

During this reporting period, OI obtained 9 convictions and 17 civil judgments for UI-SI
fraud cases. Defendants in these cases received, in the aggregate, 5 years of prison,
29 years of probation, 150 hours of community service, and were ordered to pay more
than $461,500 in restitution, fines, and civil damages/penalties.

The following are examples of UI-SI cases completed during this reporting period.

      UI Claimant Fails to Report Work and Earnings to the RRB

OI investigated an RRB claimant based upon an agency referral. OI’s investigation
determined that during the period of May 2009 through March 2010, the claimant
applied for RRB UI benefits on the same days he was working and being paid by a
private employer. The claimant submitted a total of 22 false claims and collected more
than $12,000 in fraudulent UI benefits.

This case was referred to the United States Attorney’s Office for the Southern District of
Illinois. The United States Attorney’s Office filed an indictment charging the claimant
with Theft of Government Funds. The claimant pled guilty and was sentenced to
5 years of probation, 10 hours of community service, and ordered to pay full restitution
plus a special assessment.

      UI Claimant Enters into Pretrial Diversion

OI investigated an RRB UI claimant based upon an agency referral. OI’s investigation
determined that during the period of June 2010 through March 2011, the claimant
applied for RRB UI benefits on many of the same days he was working for a private
employer. His actions resulted in the theft of more than $12,000 in UI benefits.

This case was referred to the United States Attorney’s Office for the Western District of
Tennessee. The claimant entered into a 12 month Pretrial Diversion agreement with the
United States Attorney’s Office for making false claims to the Government. Under this
agreement, the claimant must pay full restitution, complete one year of supervision, and
perform 100 hours of community service.


                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 21
       Office of Inspector General for the Railroad Retirement Board

       UI Claimant Sentenced to Five Years of Probation
OI investigated an RRB UI claimant based upon an agency referral. OI’s investigation
determined that during the period of May 2009 through May 2010, the claimant
collected RRB UI benefits on the same days he was working for a private employer. The
claimant failed to report his work and earnings to the RRB and fraudulently received
more than $14,000 in UI benefits.

This case was referred to the United States Attorney’s Office for the Middle District of
Florida. The United States Attorney’s Office filed an information against the annuitant
for Theft of Government Funds. The annuitant pled guilty and was sentenced to five
years of probation, six months of home detention, and ordered to pay full restitution
plus a special assessment.

       Retirement-Survivor Benefits and Representative Payee
       Investigations
The RRA provides retirement-survivor benefits for qualified railroad workers and their
families. RRB retirement-survivor benefit fraud typically involves:

   •   an individual failing to report information to the RRB that may disqualify the
       annuitant from receiving benefits;
   •   instances of theft or fraudulent cashing of retirement benefit checks by someone
       other than the authorized RRB annuitant; or
   •   an individual designated to receive RRB benefits on behalf of an RRB annuitant
       fraudulently using the funds for their own personal use.

During this reporting period, OI obtained five convictions and four civil judgments for
retirement benefit fraud cases. Defendants in these cases received, in the aggregate,
almost 4 years of prison, 10½ years of probation, and were ordered to pay more than
$649,400 in restitution, fines, and civil damages/penalties.




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 22
       Office of Inspector General for the Railroad Retirement Board


      Retirement Annuitant Reported Earnings under Spouse’s Social
      Security Number

OI Special Agents investigated an RRB retirement annuitant who, in order to conceal
his return to work in the railroad industry, reported his wages under his spouse’s social
security number. The annuitant’s failure to report his income to the RRB caused him to
fraudulently receive more than $83,000 in retirement payments.

This case was referred to the United States Attorney’s Office for the District of Maine.
The United States Attorney’s Office filed an information against the annuitant for Theft
of Government Funds. He pled guilty and was sentenced to three years of probation, full
restitution, and a special assessment fee.

      Representative Payee Sentenced to 33 Months of Prison
OI substantiated allegations that from April 2001 through November 2009 a
representative payee had misused RRB funds for her own personal use instead of
paying the RRB beneficiary’s nursing home bills.

This case was referred to the United States Attorney’s Office for the Northern District of
Illinois. The United States Attorney’s Office indicted the representative payee and she
pled guilty to one count Theft of Public Money, Property, or Records and was sentenced
to 33 months of prison and more than $388,000 in restitution.

      Owners of a Residential Care Facility Fraudulently Receives
      RRB Benefits
OI’s investigation revealed that from October 2010 through January 2012 the owners of
a residential personal care facility continued to accept RRB survivor benefits for the
care of an RRB beneficiary even though the individual no longer resided in their facility.

This case was referred to the United States Attorney’s Office for the Southern District of
Georgia. The individuals entered into a settlement agreement with the United States
Attorney’s Office agreeing to pay more than $17,500 to settle charges under the False
Claims Act.




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 23
         Office of Inspector General for the Railroad Retirement Board

         Railroad Medicare Investigations
During this reporting period, OI obtained four convictions and six civil judgments in
Railroad Medicare fraud cases. Defendants in these cases received, in the aggregate,
almost 11 years of prison, 9 years of probation, and were ordered to pay more than
$173.4 million in restitution, fines, and civil damages/penalties. 8

All of OI’s active Medicare cases are being worked jointly with the Office of Inspector
General for the U.S. Department of Health and Human Services, the Office of Inspector
General for the Office of Personnel Management, or other agencies responsible for
investigating health care fraud. Interagency cooperation is imperative to effective law
enforcement especially among agencies responsible for investigating the complexities
of health care fraud.

Descriptions of representative cases completed during this reporting period follow.

         Physical Therapy Company Co-Owners Are Sentenced to Prison
OI Special Agents worked cooperatively as members of the Medicare Fraud Strike
Force to investigate allegations against the owners of a physical therapy company. The
team’s investigation revealed that the subject provider sold fictitious physical and
occupational therapy notes to companies who then submitted these fraudulent claims to
Medicare for payment.

This case was referred to the United States Attorney’s Office for the Eastern District of
Michigan. The co-owners subsequently pled guilty and were sentenced to a combined
total of 6½ years of prison and more than $850,000 in restitution.

         Qui Tam Lawsuit Settled for $600,000
OI Special Agents worked cooperatively as members of a multi-agency team
investigating allegations contained in a Qui Tam lawsuit filed in the Southern District of
Florida. Agents were able to prove that the subject medical provider performed
procedures without the required supervision in addition to “unbundling” or double billing
Medicare for the same procedure. The United States Attorney’s Office for the Southern
District of Florida subsequently intervened in this case.

8
  This total reflects the full amount of restitution, fines, and civil damages/penalties ordered. Since OI’s Railroad Medicare
fraud cases are joint investigations, the total dollar amount includes losses to other health care programs.

                                 Semiannual Report to the Congress
                          April 1, 2013 – September 30, 2013 │ P a g e 24
          Office of Inspector General for the Railroad Retirement Board

The provider entered into a settlement agreement with the United States Attorney’s
Office consenting to pay $600,000 to settle these claims.

          Civil Enforcement Results
    OI may pursue civil actions to recover funds fraudulently obtained by annuitants or
    claimants. These civil actions are typically prosecuted under the provisions of the False
    Claims Act. This statute provides that the government may recover up to treble
    damages as well as a $5,500 to $11,000 penalty for each false claim submitted.

    During this semiannual reporting period, a total of 28 civil judgments were entered by
    U.S. District Courts for RRB fraud cases totaling more than $137.9 million in damages
    and penalties. 9 Some of these civil actions are pursued under the Department of
    Justice’s Affirmative Civil Enforcement program which provides an efficient and
    effective means to address fraud against the RRB’s programs including the
    unemployment-sickness insurance program and the disability program.




9
  The total amount of damages and penalties listed reflects fraud amounts related to programs administered exclusively
by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in
the disposition resulting from the investigation.



                               Semiannual Report to the Congress
                        April 1, 2013 – September 30, 2013 │ P a g e 25
     Office of Inspector General for the Railroad Retirement Board

      Hotline Contacts
Our office established its hotline to receive complaints concerning suspected fraud,
waste, and abuse in the RRB’s programs and operations. The hotline provides an open
line of communication for individuals to report suspected criminal activity and
mismanagement/waste of RRB funds.

During this reporting period, our hotline received 207 contacts in the following manner:
81% by telephone, 17% by email, and 2% by mail. The following chart summarizes the
disposition of hotline contacts received.




                                                        Referred to the Office of
                                                        Investigations


                                    62
                    70                                  Referred to Another
                                                        Agency or Company



                                                        Hang Ups or Insufficient
                                                        Information to Make an
                             75                         Appropriate Referral




                        Semiannual Report to the Congress
                 April 1, 2013 – September 30, 2013 │ P a g e 26
            Office of Inspector General for the Railroad Retirement Board


            OTHER OVERSIGHT ACTIVITIES

            Occupational Disability Program
The prevention of improper payments remains our priority and we continue to devote
investigative and audit resources to strengthening the integrity of the RRB’s benefit
programs including the occupational disability program. In fact, over the last several
years, the Inspector General has identified a wide range of recommendations to
strengthen the integrity of this program; however, a vast majority of these
recommendations have not been implemented and vulnerabilities continue to threaten
program integrity. 10

The RRB owes it to the nation’s railroad workers and their families to fulfill the agency’s
mission by paying “benefits to the right people, in the right amounts, in a timely manner,
and … [taking] appropriate action to safeguard [their] customers’ trust funds.” 11

            OIG Alerts
In June 2012, the Inspector General began issuing OIG Alerts to the agency. OIG Alerts
supplement our current investigative and audit processes by providing the Inspector
General with a quick and efficient mechanism to suggest recommendations for agency
improvement. During this semiannual reporting period, the Inspector General issued
four OIG Alerts. These recommendations included:

        •   amending the RUIA and the RRA to specifically exclude voluntarily retired
            individuals from receiving sickness insurance benefits or occupational disability
            benefits from the RRB;
        •   strengthening the criminal penalty provisions of the RRA and the RUIA by
            adding felony charges;
        •   adding either a fraud disqualification period or a nonpayment of benefits penalty
            to the RRA; and
        •   creating reliable and searchable electronic files in the RRB’s disability program.



10
     See pages 2 and 19 for details relating to our ongoing LIRR occupational disability fraud investigation.
11
   Railroad Retirement Board, Mission Statement. (Chicago, Illinois: September 2003). Retrieved from
http://www.rrb.gov/general/mission.asp. Accessed September 30, 2013.

                                  Semiannual Report to the Congress
                           April 1, 2013 – September 30, 2013 │ P a g e 27
          Office of Inspector General for the Railroad Retirement Board

           American Recovery and Reinvestment Act of 2009
During this semiannual period, we continued our efforts to aide in a transparent
American Recovery and Reinvestment Act process by preparing monthly progress
reports in formats developed by the Recovery Accountability and Transparency Board.
These monthly reports are published on the Recovery.gov website and are also
available on the RRB’s Recovery Act Information webpage.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, almost 88% of OI’s current UI fraud cases involve extended
UI benefits.

           OPERATIONAL ISSUES
The following operational issue impacts the OIG’s ability to effectively carry out its
oversight role. This issue would have to be remedied with legislative change.

           National Railroad Retirement Investment Trust
The National Railroad Retirement Investment Trust (NRRIT) is a tax-exempt entity
independent of the Federal government which was established by the Railroad
Retirement and Survivors’ Improvement Act of 2001 (RRSIA) to manage and invest
railroad retirement assets. 12 RRSIA does not provide OIG with oversight authority to
conduct audits and investigations of the NRRIT; however, RRSIA does require that the
NRRIT report to the RRB.

A lack of NRRIT investment fund management accountability, transparency, and
stringent financial oversight can be precursors to fraud, waste, or abuse. In fact, we
have monitored the NRRIT since 2001 and have continually expressed concerns
regarding lack of meaningful oversight. Despite these concerns and questionable long-
term trust fund solvency, the RRB continues to maintain a passive relationship with the
NRRIT. The NRRIT fund, which supports the railroad retirement program, continues to
remain outside the purview of those appointed to protect the interests of the program’s
beneficiaries and tax-paying public. Within the Federal agency spectrum there is no


12
     As of August 31, 2013, the RRB’s investments in the NRRIT were valued at approximately $24 billion.



                                 Semiannual Report to the Congress
                          April 1, 2013 – September 30, 2013 │ P a g e 28
         Office of Inspector General for the Railroad Retirement Board

comparable example where Federal program assets are completely outside of the
jurisdiction of a Federal agency’s appointed Inspector General.

New American Institute of Certified Public Accountants’ auditing standards,
AU-C section 600 Special Considerations – Audits of Group Financial Statements
(Including the Work of Component Auditors) established additional audit procedures for
financial statement audit periods ending on or after December 15, 2012. These new
standards require direct communication and cooperation between financial statement
auditing organizations (i.e. the OIG) and other auditors who perform work on the
financial information that will be utilized as audit evidence (NRRIT’s component auditor).
As of September 30, 2013, the NRRIT and their component auditor have been
uncooperative and we may be forced to disclaim on the RRB’s financial statements (for
the second year in a row). 13

To ensure the integrity, economy, and long-term viability of the NRRIT, RRB
management must establish performance audit requirements that will strengthen
administrative and financial oversight and ensure fund transparency.

         LEGISLATIVE & REGULATORY REVIEW
The Inspector General Act of 1978, as amended, requires the Inspector General to
review existing and proposed legislation and regulations relating to the programs and
operations of the agency. To enhance program integrity, the Inspector General
recommended the following legislative changes:

     •  amending both the RRA and the RUIA to specifically exclude voluntarily retired
        individuals from receiving occupational disability benefits and sickness insurance
        benefits from the RRB;
     • strengthening the criminal penalty provisions of the RRA and the RUIA by
        adding felony charges;
     • adding either a fraud disqualification period or a nonpayment of benefits penalty
        to the RRA; and
     • amending the RRA to prohibit the payment of RRB benefits to prisoners.



13
  The accounting firm retained by the NRRIT received a peer review rating of pass with deficiencies for its
system review report for the year ended March 31, 2011. As a result, the OIG issued a disclaimer on the
RRB’s financial statement for fiscal years 2012, 2011, and 2010 due to the significance of the NRRIT net
asset amounts included in the RRB’s financial statements.

                             Semiannual Report to the Congress
                      April 1, 2013 – September 30, 2013 │ P a g e 29
    APPENDICES
                                                                             Page
Appendix Title
                                                                              No.
   A      Office of Inspector General Reports and Other Publicly Available    31
          Papers Issued
   B      Audit Reports with Questioned Costs or with Recommendations         32
          that Funds be Put to Better Use
   C      Report on Receivables, Waivers, and Recoveries                      33
   D      Significant Matters                                                 35
   E      Peer Reviews                                                        37
   F      Reports Prepared by Management                                      38
   G      Reporting Requirements                                              45
   H      Acronyms                                                            46
   I      Legal References                                                    47




                    Semiannual Report to the Congress
             April 1, 2013 – September 30, 2013 │ P a g e 30
      Appendix A – Office of Inspector General Reports and Other
      Publicly Available Papers Issued
       •   Audit of the Railroad Retirement Board’s Management Control Review Process for
           Railroad Medicare Contract Oversight, June 24, 2013

       •   Review of Questionable On-the-Job Injury Claims, July 18, 2013

       •   Audit of the Railroad Retirement Board’s Internal Controls over Widow(er)
           Annuities, July 31, 2013

       •   Audit of the Railroad Retirement Board’s Compliance with the Government Charge
           Card Abuse Prevention Act of 2012, September 19, 2013

       •   Audit of the Railroad Retirement Board’s Privacy Program, September 20, 2013

All publicly available audit reports and papers are available on our website at www.rrb.gov/oig.




                             Semiannual Report to the Congress
                      April 1, 2013 – September 30, 2013 │ P a g e 31
        Appendix B – Audit Reports with Questioned Costs or
        with Recommendations That Funds be Put to Better Use


                                                Audit Reports
                                                                Amount of         Amount of
                                                    with
                                                                Questioned       Unsupported
                                                 Questioned
                                                                  Costs             Costs
                                                   Costs
A. For which no management decision had
been made by April 1, 2013
                                                     1           $3.8 Million     $3.8 Million
B. Which were issued from April 1, 2013
through September 30, 2013
                                                     2          $86.6 Million     $2.6 Million
Subtotal (A + B)                                     3          $90.4 Million     $6.4 Million
C. For which a management decision was
made between April 1, 2013 through                   2          $86.6 Million     $2.6 Million
September 30, 2013
    (i) dollar value of disallowed costs             0                 0               0
    (ii) dollar value of costs not disallowed        2          $86.6 Million     $2.6 Million
D. For which no management decision had
been made by September 30, 2013
                                                     1           $3.8 Million     $3.8 Million
E. Report for which no management
decision was made within six months of               1           $3.8 Million     $3.8 Million
issuance




                                                           Audit Reports With
                                                           Recommendations
                                                                                  Dollar Value
                                                          that Funds Be Put to
                                                               Better Use
A. For which no management decision had been made by
April 1, 2013
                                                                   0                   0
B. Which were issued from April 1, 2013 through
September 30, 2013
                                                                   1                $2,440
C. Subtotal (A + B)                                                1                $2,440
    (i) dollar value of disallowed costs                           0                   0
    (ii) dollar value of costs not disallowed                      1                $2,440
D. For which no management decision had been made by
September 30, 2013
                                                                   0                   0
E. Report for which no management decision was made
within six months of issuance
                                                                   0                   0




                             Semiannual Report to the Congress
                      April 1, 2013 – September 30, 2013 │ P a g e 32
      Appendix C – Report on Receivables, Waivers, and
      Recoveries
The FY 1999 appropriations language for the OIG requires the reporting of additional
information concerning actual collections, offsets, and funds put to better use achieved
as a result of OIG’s activities.

                           Office of Investigations

                         Recoveries realized by the RRB
                          resulting from court-ordered
                          restitution and civil damages
                                                  Amount
                          Fiscal Year
                                                 Recovered
                              1999            $ 855,655
                              2000            $1,038,134
                              2001            $ 990,356
                              2002            $ 785,843
                              2003            $ 947,876
                              2004            $ 646,273
                              2005            $ 844,183
                              2006            $1,281,680
                              2007            $1,347,049
                              2008            $1,389,489
                              2009            $1,097,227
                              2010            $1,118,256
                              2011            $2,293,530
                              2012            $1,417,125
                              2013            $1,922,166




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 33
                                              Office of Audit

                         Funds to be         Funds
                                                              Receivables                    Recoveries
              Report     put to better      Agreed by                                                 14
                                                              Established         Waivers     to Date
                              use          Management
                99-03          $50,850             $50,850              $50,850    $50,490          $360
                99-14          $83,000             $83,000              $34,423         $0       $30,584
                99-16     $48,000,000         $48,000,000                   $0          $0   $22,500,000
                99-17     $11,000,000         $11,000,000                   $0          $0    $1,604,545
                00-16         $235,000            $235,000               $0             $0      $253,846
                03-06         $306,129                 N/A               $0             $0      $306,129
                04-06         $821,000            $821,000         $604,429         $5,564      $629,688
                04-10         $400,000            $400,000                  $0          $0      $761,151
                05-03       $1,800,000          $1,800,000       $4,476,192 $339,244          $2,756,023
                05-06          $10,000             $10,000                  $0          $0       $42,915
                05-07       $1,070,000          $1,070,000              $49,943         $0       $94,049
                05-10       $2,600,000          $2,600,000                        $311,000
                06-04         $257,000            $257,000
                06-05            $2,100             $2,100                  $0          $0            $0
                06-06         $200,000            $200,000              $18,263         $0       $25,866
                09-02         $600,000            $600,000                $320          $0    $1,578,838
                10-09       $3,355,408          $3,355,408                  $0          $0    $3,355,408
                10-13         $212,038             $92,412                  $0          $0       $18,614
                12-03            $3,483             $3,483                  $0          $0        $3,483
                13-03         $112,600                   $0                 $0          $0            $0
                13-08            $2,440             $2,440                  $0          $0            $0




14
     Both overpayments and underpayments are included in this column.



                                 Semiannual Report to the Congress
                          April 1, 2013 – September 30, 2013 │ P a g e 34
         Appendix D – Significant Matters
The OIG has identified deficiencies in controls over budgetary reporting and information
security as significant matters. A summary of the issues and related recommendations
for corrective action follow.

                                      Budgetary Reporting 15
In FY 2011, we reported a material weakness for budgetary reporting and
recommended that the Bureau of Fiscal Operations (BFO) provide training for the
preparation of the statement and implement a review process to ensure the accuracy of
calculations, consistency in recorded amounts, and effectiveness of controls. In an effort
to address this material weakness, BFO staff conducted budgetary training for the
accountants in March 2012. Although BFO has made an effort to address this
weakness, the training was not sufficient to prevent the financial reporting errors found
in the June 30, 2012 Statement of Budgetary Resources. In addition, corrective action
remains to be taken regarding an improved review process to ensure the accuracy of
calculations, consistency in recorded amounts, and effectiveness of controls.

Issue Area                                        Date of Report               Report and Recommendations
Budgetary Reporting                               January 31, 2012             Report OIG 12-04, #1 & 2




15
  Due to the October 2013 Government shutdown, we were unable to obtain timely information regarding the RRB’s
progress towards resolving the previously cited material weakness in budgetary reporting. This section will be updated
during the next semiannual reporting period.

                                Semiannual Report to the Congress
                         April 1, 2013 – September 30, 2013 │ P a g e 35
                                         Information Security
Risk Management Program
The OIG previously evaluated information security pursuant to the provisions of the
Federal Information Security Management Act of 2002 (FISMA) and concluded that the
RRB has not yet achieved an effective FISMA-compliant security program. Although
agency managers are working to strengthen controls, management action in response
to the following OIG recommendations had either not been completed as of the end of
the current semiannual reporting period or had not been in place long enough to permit
evaluation.
                                                                                                                      16
Issue Area                                            Date of Report             Report and Recommendations
Internal Control Over the Risk
                       17
Management Program                                   July 18, 2005               Report OIG 05-08, #4
                                                     September 30, 2008          Report OIG 08-05, #2 & 7
                                                     November 12, 2009           Report OIG 10-01, #1 & 5
                                                     September 28, 2011          Report OIG 11-10, #1 – 3
                                                     September 28, 2001          Report OIG 11-11, #1 – 4
                                                     September 29, 2011          Report OIG 11-12, #1 – 4
                                                     January 5, 2012             Report OIG 12-02, #2 & 5
                                                     September 21, 2012          Report OIG 12-08, #2 - 4
Configuration Management
The OIG also identified a material weakness regarding information technology security
application services because the RRB continues to use an unsupported server for some
major applications. Agency management has ensured that some of the affected servers
were replaced and others have been moved to the agency’s virtual environment, but
action to complete full decommission of all affected servers continues. Uncertainties
exist in determining the timeframe in which this situation will be corrected, as well as the
necessary resources for completion.
                                                                                                                      18
Issue Area                                            Date of Report             Report and Recommendations
Security Configuration Management                    January 5, 2012             Report OIG 12-02, #7 & 8




16
   Online report abstracts summarize the results of the noted evaluations. The full reports include information protected
from disclosure and have been designated for limited distribution pursuant to 5 U.S.C. § 552.
17
   Previously known as Certification and Accreditation.
18
   An online report abstract summarizes the results of this evaluation. The full report includes information protected from
disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

                                Semiannual Report to the Congress
                         April 1, 2013 – September 30, 2013 │ P a g e 36
      Appendix E – Peer Reviews
Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
requires Inspectors General to provide information regarding peer reviews in their
Semiannual Reports to the Congress.

      Office of Audit
In general, Federal audit organizations may receive a peer review rating of pass, pass
with deficiencies, or fail.

The results of OA’s most recent peer review (which was for the year ended
March 31, 2012) were transmitted on November 21, 2012. OA received a peer review
rating of pass. This peer review did not contain any recommendations.
OA did not conduct any peer reviews during this semiannual reporting period.

      Office of Investigations
During the peer review process, Federal OIG investigative organizations, in general,
may receive a peer review rating of fully compliant, compliant, or not compliant with the
quality standards established by the Council of the Inspectors General on Integrity and
Efficiency and the Attorney General’s Guidelines for Inspectors General with Law
Enforcement Authority based on Section 6(e) of the Inspector General Act, as
amended.
The results of OI’s most recent peer review (which was for the FY ended
September 30, 2011) were transmitted on February 9, 2012. OI received a peer review
rating of pass. This peer review did not contain any recommendations.
During this semiannual reporting period, OI began their peer review of the Office of
Inspector General for the Federal Reserve Board.




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 37
      Appendix F – Reports Prepared by Management


               Final Action on Audits with Disallowed Costs
For the 6-Month Period Ending                            Number of      Disallowed
September 30, 2013                                      Audit Reports     Costs

A.   Audit reports, with management decisions, on
     which final action had not been taken at the            0             $0
     beginning of the period.
B.   Audit reports on which management decisions
     were made during the period.                            0             $0

C.   Total audit reports pending final action during
     the period. (A + B)                                     0             $0

D.   Audit reports on which final action was taken
     during the period.

     1.    Recoveries

           (a) Collections and offsets                       0             $0

           (b) Property                                      0             $0

           (c) Other                                         0             $0

     2.    Recovery Waived                                   0             $0

     3.    Total of 1 and 2                                  0             $0

E.   Audit reports needing final action at the end of
     the period (C - D.3).                                                 $0
                                                              0




                          Semiannual Report to the Congress
                   April 1, 2013 – September 30, 2013 │ P a g e 38
                Management Report on Final Action on Audits with
                Recommendations to Put Funds to Better Use for the
                6-Month Period Ending September 30, 2013
                                                                   Number of                  Funds to be
                                                                  Audit Reports            Put to Better Use
A.     Audit reports, with management decisions, on
       which final action had not been taken at the
       beginning of the period.                                         5                     $4,249,920*

B.     Audit reports on which management decisions
       were made during the period.                                     0                           $0

C.     Total audit reports pending final action during
       the period. (A - B)                                              5                     $4,249,920

D.     Audit reports on which final action was taken
       during the period.

       1.     Value of recommendations implemented
              (completed)                                               1                     $3,355,408

       2.     Value of recommendations that
              management concluded should not or
              could not be implemented (completed)                      0                           $0

       3.     Total of 1 and 2                                          1                     $3,355,408

E.     Audit reports needing final action at the end of
       the period                                                       4                       $894,512




     * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
     Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits; $200,000 from Audit
     Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
     Act; $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
     Management; $3,355,408 from Audit Report 10-09, Audit of Internal Controls over Medicare Premium
     Transfers Between the Railroad Retirement Board and the Centers for Medicare and Medicaid Services;
     and $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after Beneficiaries’
     Dates of Death.




                                 Semiannual Report to the Congress
                          April 1, 2013 – September 30, 2013 │ P a g e 39
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2013
                                                   Disallowed Funds to be Put
Report                                   Date        Costs     to Better Use        Reason Action Not Completed

Review of Information Security at the   02/5/02      NONE         NONE          Information Services has closed 26 out
Railroad Retirement Board (02-04)                                               of 28 recommendations. Servers are
                                                                                scheduled to be replaced once
                                                                                remaining project on server is
                                                                                completed.

Review of Internal Control Over the     05/5/05      NONE         NONE          The Chief Actuary is still reviewing their
Actuarial Projection Process (05-04)                                            options to best implement this
                                                                                recommendation.

Review of Access Controls in the End-   07/18/05     NONE         NONE          Information Services has closed 14 of
User Computing General Support                                                  15 recommendations in this
System (05-08)                                                                  confidential report. Risk assessment
                                                                                was done and it was determined that
                                                                                contractor assistance will remediate
                                                                                last remaining recommendation by
                                                                                FY2014.

Fiscal Year 2005 Evaluation of          09/28/05     NONE         NONE          Bureau of Information Services is
Information Security at the Railroad                                            working with outside contractor. Target
Retirement Board (05-11)                                                        for completion is FY2014.

Accuracy and Reliability of GPRA        01/30/06     NONE         NONE          Programs have closed six of the seven
Performance Measures: Timeliness of                                             recommendations. Last
Non-Disability Survivor Annuity                                                 recommendation has been delayed
Payments (06-03)                                                                due to higher priority project.

Review of Compliance with the           04/12/06     NONE         $2,100        Programs staff closed four of the five
Provisions of the Railroad Retirement                                           recommendations. Last
Act Governing the Initial Award of                                              recommendation on hold due to
Benefits (06-05)                                                                resources diverted to higher priority
                                                                                project.

Review of the Termination and           05/24/06     NONE        $200,000       Analysis completed and draft report
Suspension of Benefits Paid Under the                                           submitted for review prior to request for
Railroad Retirement Act (06-06)                                                 IT changes. Coding work is in
                                                                                progress.

Review of Incident Handling and         08/24/06     NONE         NONE          Contract option to draft incident
Reporting at the Railroad Retirement                                            response plan was approved however
Board (06-09)                                                                   staff was reassigned to another project.
                                                                                Training will be conducted as required
                                                                                in the CSIRP.




                                       Semiannual Report to the Congress
                                April 1, 2013 – September 30, 2013 │ P a g e 40
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2013
                                                      Disallowed Funds to be Put
Report                                      Date        Costs     to Better Use        Reason Action Not Completed

Audit of the DAISY/CHICO Component         03/9/07      NONE         NONE          Recent IT changes are pending review
Application of the RRA Benefit Payment                                             as resources were diverted to higher
Major Application System (07-02)                                                   priority projects.

Evaluation of the Railroad Retirement      07/30/07     NONE         NONE          New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                    funding and resources are needed. Of
                                                                                   the 16 recommendations, 15 have
                                                                                   been closed. Work continues on last
                                                                                   recommendation.

Audit of Federal Income Taxes Withheld     07/30/07     NONE         NONE          Coordination is required with another
from Railroad Retirement Annuities                                                 org. Five of the six recommendations
(07-07)                                                                            have been closed, with the remaining
                                                                                   one targeted for completion in FY14.

Fiscal Year 2007 Evaluation of             09/27/07     NONE         NONE          Work continues and is targeted for
Information Security at the Railroad                                               completion in FY14.
Retirement Board (07-08)

Audit of Controls to Safeguard Sensitive   09/27/07     NONE         NONE          Work and coordination continues along
Personally Identifiable Information                                                with outside contractor. Target for
(07-09)                                                                            completion is FY14.

Fiscal Year 2007 Financial Statement       03/6/08      NONE         NONE          Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                                 implemented enhanced controls in
                                                                                   FY10. OIG will reassess once sufficient
                                                                                   time has lapse.

Evaluation of Information Security for the 09/26/08     NONE         NONE          Work plans, policy and/or procedures
RRB’s Financial Interchange Major                                                  continue with target for completion in
Application – Abstract (08-03)                                                     FY14.

Fiscal Year 2008 Evaluation of             09/26/08     NONE         NONE          Work is currently being performed in
Information Security at the RRB (08-05)                                            coordination with outside contractor.

Fiscal Year 2008 Financial Statement       03/24/09     NONE        $600,000       Review and updating of
Audit Letter to Management (09-02)                                                 documentations along with case
                                                                                   reviews are currently being performed
                                                                                   on remaining recommendations. Work
                                                                                   continues.

Audit of Internal Control Over Accounts    03/31/09     NONE         NONE          Remaining recommendation is
Payable (09-03)                                                                    dependent on the replacement of FFS
                                                                                   with FMIS.



                                       Semiannual Report to the Congress
                                April 1, 2013 – September 30, 2013 │ P a g e 41
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2013
                                                      Disallowed Funds to be Put
Report                                      Date        Costs     to Better Use        Reason Action Not Completed

Audit of the Railroad Medicare Integrity   09/25/09     NONE         NONE          Additional documentations were
Program at Palmetto Government                                                     requested which requires coordination
Benefits Administrators (09-04)                                                    with outside agency.

Audit of the General and Application       09/30/09     NONE         NONE          Of the 3 recommendations, 1 was
Controls in the Financial Management                                               closed by the OIG, 1 requires
Major Application System (09-05)                                                   additional work and the last is on hold
                                                                                   due to other priority workloads. Target
                                                                                   completion in FY14.

Fiscal Year 2009 Evaluation of             11/12/09     NONE         NONE          Contractor assistance is needed and
Information Security (10-01)                                                       as soon as all testing is completed
                                                                                   documentation will be sent to OIG for
                                                                                   review. Target completion in FY14.


Review of Statistical Methods Employed     05/04/10     NONE         NONE          The Bureau of Actuary (BOA) is
in the Financial Interchange                                                       reviewing documentation and will take
Determination (10-06m)                                                             the necessary action(s) and coordinate
                                                                                   with the Bureau of Information Services
                                                                                   for programming services.

Review of the Technical Approach and       05/19/10     NONE         NONE          The Bureau of Actuary is reviewing
Methodology Used to Determine the                                                  documentation and will take the
Annual Financial Interchange Amount                                                necessary action(s).
for the Year Ended September 30, 2008
(10-07m)


Review of the Accuracy of the Financial    05/25/10     NONE         NONE          The Bureau of Actuary is reviewing
Interchange as Executed for the Year                                               documentation and will take the
Ended September 30, 2008 (10-10m)                                                  necessary action(s).

Audit of Unilateral Disability Freeze      08/12/10     NONE         NONE          Documentations were submitted to
Determinations (10-11)                                                             OIG; 2 recommendations were closed
                                                                                   with 1 requiring additional working and
                                                                                   the remaining 2 are awaiting Board
                                                                                   approval. Target completion in FY14.

Audit of the Account Benefits Ratio        09/29/10     NONE         NONE          The Bureau of Actuary reviewed and
(10-12)                                                                            will take the necessary action(s).




                                        Semiannual Report to the Congress
                                 April 1, 2013 – September 30, 2013 │ P a g e 42
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2013
                                                       Disallowed Funds to be Put
Report                                       Date        Costs     to Better Use        Reason Action Not Completed

Railroad Medicare Services Billed with      09/30/10     NONE        $92,412        Coordination continues with outside
Dates of Service after the Beneficiaries’                                           organization. In additional
Dates of Death (10-13)                                                              documentation were submitted on 2
                                                                                    recommendations and 1 was closed.

Fiscal Year 2010 Evaluation of              11/05/10     NONE         NONE          Additional documentation was
Information Security at the Railroad                                                requested by OIG on last
Retirement Board - Abstract (11-01)                                                 recommendation, and replacement
                                                                                    FTE is needed.

Audit of Controls Over Railroad             04/20/11     NONE         NONE          Coordination is required with outside
Medicare Contract Costs (11-06)                                                     organization.

Audit of Railroad Retirement Act            06/29/11     NONE         NONE          Programs’ is working with Bureau of
Benefits Overpayments and Internal                                                  Information Services pending
Controls (11-07)                                                                    implementation of systems changes.


Review of the Railroad Retirement           07/07/11     NONE         NONE          Of the 12 recommendations, 2 required
Board’s Security Patch Management                                                   additional documentations, 5 are
Process – Abstract (11-08)                                                          awaiting new FTE replacement from
                                                                                    contractor, work continues on 1 and 4
                                                                                    have been closed.

Inspection of the Railroad Retirement       09/28/11     NONE         NONE          Bureau of Information Services is
Board’s Agency Enterprise General                                                   awaiting documentation from outside
Information Support System                                                          contractor and is also reviewing current
Certification and Accreditation –                                                   procedures and updating.
Abstract (11-10)

Inspection of the Railroad Retirement       09/28/11     NONE         NONE          Contract has been awarded and work
Board’s Financial Management                                                        is in progress with outside contractor.
System’s Continuous Monitoring
Program – Abstract (11-11)

Evaluation of the Railroad Retirement       09/29/11     NONE         NONE          Work plans, policy, and/or procedures
Board’s Benefit and Payment                                                         are currently pending, in addition to
Operations System Continuous                                                        coordination is required with outside
Monitoring – Abstract (11-12)                                                       contractor.

Fiscal Year 2011 Evaluation of              01/05/12     NONE         NONE          Coordination is required with outside
Information Security at the Railroad                                                contractor. In addition procedures are
Retirement Board - Abstract (12-02)                                                 being updated.



                                       Semiannual Report to the Congress
                                April 1, 2013 – September 30, 2013 │ P a g e 43
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2013
                                                   Disallowed Funds to be Put
Report                                   Date        Costs     to Better Use        Reason Action Not Completed

Fiscal Year 2011 Financial Statement    02/31/12     NONE         NONE          Additional documentation was
Audit Letter to Management (12-04)                                              submitted on 1 recommendation and
                                                                                policies and procedures are being
                                                                                reviewed on remaining
                                                                                recommendations.

Audit of the Application Express        03/30/12     NONE         NONE          Analysis is deferred due to work
(APPLE) System’s Date of Death                                                  committed to other priority project and
Reliability (12-06)                                                             additional documentation was
                                                                                requested by OIG on 1
                                                                                recommendation.

Inspection of the Railroad Retirement   07/27/12     NONE         NONE          Preliminary work to define the scope is
Board’s Representative Payee                                                    in progress with actual work and in
Monitoring (12-07)                                                              depth analysis to follow after higher
                                                                                priority projects has been completed.

Inspection of the Railroad Retirement   09/21/12     NONE         NONE          The Bureau of Actuary is currently
Board’s Financial Interchange System                                            reviewing and will take the necessary
Continuous Monitoring (12-08)                                                   action(s).

Audit of the Railroad Medicare Part B   09/26/12     NONE         NONE          Work is in progress. IPI worksheet has
Eligibility and Premium Collection                                              been completed and is pending IRMC
Process (12-10)                                                                 approval. Training will be conducted.




                                    Semiannual Report to the Congress
                             April 1, 2013 – September 30, 2013 │ P a g e 44
       Appendix G – Reporting Requirements
Act Reference       Inspector General Reporting Requirements               Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                      29
Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies         35 – 36
Section 5(a) (2)    Recommendations With Respect to Significant            35 – 36
                    Problems, Abuses, and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet              35 – 36
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities              4, 18
Section 5(a) (5)    Instances Where Information Was Refused                  None
Section 5(a) (6)    List of Audit Reports                                       31
Section 5(a) (7)    Summary of Each Significant Report                      4 – 14
Section 5(a) (8)    Statistical Tables on Management Decisions on               32
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on               32
                    Recommendations That Funds be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  15
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant          None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management              27 – 29
                    Decisions With Which the Inspector General
                    Disagrees



Act Reference       Management Reporting Requirements                      Page(s)
Section 5(b) (1)    Management Comments                               Management’s
                                                                        Transmittal
Section 5(b) (2)    Statistical Table on Final Action on                        38
                    Disallowed Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds              39
                    to Better Use
Section 5(b) (4)    Statement on Audit Reports With Final                  40 – 44
                    Action Pending




                           Semiannual Report to the Congress
                    April 1, 2013 – September 30, 2013 │ P a g e 45
       Appendix H – Acronyms
Acronym     Explanation

APPLE       Application Express System
BFO         Bureau of Fiscal Operations
FISMA       Federal Information Security Management Act of 2002
FY          Fiscal Year
LIRR        Long Island Rail Road
MCR         Management Control Review
NRRIT       National Railroad Retirement Investment Trust
OA          Office of Inspector General for the Railroad
            Retirement Board – Office of Audit
OI          Office of Inspector General for the Railroad
            Retirement Board – Office of Investigations
OIG         Office of Inspector General for the Railroad
            Retirement Board
OMB         Office of Management and Budget
PII         Personally Identifiable Information
QRRB        Qualified Railroad Retirement Beneficiaries
RRA         Railroad Retirement Act
RRB         Railroad Retirement Board
RRSIA       Railroad Retirement and Survivors’ Improvement Act
            of 2001
RUIA        Railroad Unemployment Insurance Act
SSA         Social Security Administration
SI          Sickness Insurance
UI          Unemployment Insurance




                     Semiannual Report to the Congress
              April 1, 2013 – September 30, 2013 │ P a g e 46
      Appendix I – Legal References

Federal:
American Recovery and Reinvestment Act of 2009 – P.L. 111–5
Dodd-Frank Wall Street Reform and Consumer Protection Act – P.L. 111-203
False Claims Act – 31 U.S.C. §§ 3729 – 3733
False Statements – 18 U.S.C. § 1001, et. seq.
Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.
Government Charge Card Abuse Prevention Act of 2012 – P.L. 75-717
Inspector General Act of 1978, as amended – 5 U.S.C. App. 3
Railroad Retirement Act – 45 U.S.C. § 231, et. seq.
Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.
Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90
Railroad Retirement Solvency Act of 1983 – P.L. 98–76
Social Security Act – 42 U.S.C. § 301, et seq.
Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641




                         Semiannual Report to the Congress
                  April 1, 2013 – September 30, 2013 │ P a g e 47
                        REPORT

       FRAUD, WASTE, AND ABUSE




               Call the OIG Hotline:
                      1-800-772-4258

              Email: hotline@oig.rrb.gov

 The OIG cannot ensure confidentiality to persons who provide
information via email. Do not send information by email that you
                do not want a third party to read.

            Write: RRB, OIG Hotline Officer
                   844 N. Rush Street
             Chicago, Illinois 60611-2092
